                                                          EMPLOYMENT AND TRAINING
                                                          ADMINISTRATION

          Office of Inspector General – Office of Audit



Atlanta




                                                          THE CITY OF ATLANTA, GEORGIA
                                                          DID NOT ADEQUATELY MANAGE
                                                          WELFARE-TO- WORK AND
                                                          WORKFORCE INVESTMENT ACT GRANTS




                                                                          Date Issued: November 17, 2008
                                                                          Report Number: 04-09-001-03-001
Department of Labor                                   November 2008
Office of Inspector General
Office of Audit                                       The City of Atlanta, Georgia Did Not
                                                      Adequately Manage Welfare-to-Work and
                                                      Workforce Investment Act Grants
BRIEFLY…                                              WHAT OIG FOUND
Highlights of Report Number 04-09-001-03-001,         We found that Atlanta did not have effective
report to the Deputy Assistant Secretary for          financial management systems for managing WtW
Employment and Training, dated November 17,           and WIA funds. Specifically, Atlanta did not
2008.                                                 provide evidence that it complied with Federal
                                                      procurement requirements. Atlanta also made
                                                      payments to contractors that were not adequately
                                                      supported. As a result, we questioned a total of
WHY READ THE REPORT                                   $10.1 million related to unsupported WtW grant
 The City of Atlanta was awarded Welfare-to-Work      expenditures
(WtW) and Workforce Investment Act (WIA) funds
to assist eligible participants in obtaining          Atlanta paid WIA contractors for program services
employment. WtW participants received job             without adequate support, posted expenses to a
readiness training, job placement services, and job   general ledger account without proper support,
retention assistance. WIA provided participants       and commingled WIA funds and non-DOL funds
with services such as job search, placement,          without the ability to trace or support the
counseling, job readiness, and training.              disbursements of the commingled funds. We
                                                      questioned a total of $1.2 million for unsupported
Atlanta spent $10.1 million in WtW grant funds        costs related to WIA grant expenditures.
between 1998 and 2004. During 2001 through
2003, Atlanta spent $9.7 million of WIA Youth and     Atlanta did not have effective controls for tracing of
Adult grant funds.                                    WIA and WtW draw downs and expenditures to
                                                      specific grants. In addition, Atlanta could not
                                                      demonstrate that it always complied with eligibility
WHY OIG DID THE AUDIT                                 requirements when enrolling individuals into WtW
OIG conducted a performance audit of Atlanta’s        and WIA Youth programs.
management of the WtW and WIA grant funds.
We conducted this audit because an independent        WHAT OIG RECOMMENDED
public accounting firm reported material              The OIG recommended that the Deputy Assistant
weaknesses in Atlanta’s cash management,              Secretary for Employment and Training:
financial reporting and participant eligibility for     • Recover $11.3 in questioned costs related to
DOL programs in 2002. The audit focused on                 unsupported WtW and WIA grant
whether Atlanta adequately managed its WtW and             expenditures.
WIA grant expenditures and complied with                • Conduct timely follow-ups when grant
eligibility requirements when enrolling individuals        monitoring reports identify problems.
into WtW and WIA programs.                              • Ensure that Atlanta develops effective
                                                           polices and procedures to maintain support
                                                           for WIA grant, expenditures, reconcile grant
                                                           expenditures with draw downs, and comply
READ THE FULL REPORT                                       with program eligibility requirements.
To view the report, including the scope,
methodology, and full agency response, go to:           The Executive Director of the Atlanta Workforce
                                                        Development Agency (AWDA) strongly
http://www.oig.dol.gov/public/reports/oa/2009/04-       disagreed with the report’s primary findings and
09-001-03-001.pdf                                       recommendations to recover $11.3 million of
                                                        questioned costs. As appropriate, we made
                                                        adjustments based on the information provided.
                                                        However, the additional information did not
                                                        cause us to revise our recommendations.
                                      The City of Atlanta, Georgia Did Not Adequately Manage DOL Grants




Table of Contents
                                                                                                                     PAGE

EXECUTIVE SUMMARY ................................................................................................ 3


ASSISTANT INSPECTOR GENERAL’S REPORT ........................................................ 7

Atlanta Did Not Have Effective Financial Management Systems For Managing Its
   WtW and WIA Grant Funds ..................................................................................... 8

Atlanta Could Not Demonstrate That It Always Complied With Eligibility
   Requirements When Enrolling Individuals Into WtW and WIA Youth
   Programs. ............................................................................................................... 15

EXHIBITS

    A. $11.3 Million Questioned Costs -- By Type of Grant and Finding ................. 21

    B. Invalid Participant Eligibility - Projection of Errors ...................................... 23

APPENDICES

    A. Background ....................................................................................................... 27

    B. Objectives, Scope, Methodology, and Criteria ............................................... 29

    C. Acronyms and Abbreviations........................................................................... 35

    D. Auditee Response ............................................................................................. 37




                                                        U.S. Department of Labor – Office of Inspector General
                                                         1                       Report No.: 04-09-001-03-001
  The City of Atlanta, Georgia Did Not Adequately Manage DOL Grants




PAGE INTENTIONALLY LEFT BLANK




               U.S. Department of Labor – Office of Inspector General
                2                       Report No.: 04-09-001-03-001
                                    The City of Atlanta, Georgia Did Not Adequately Manage DOL Grants



Executive Summary
The Office of Inspector General conducted a performance audit of the City of Atlanta,
Georgia’s (Atlanta) management of Welfare-to-Work (WtW) and Workforce Investment Act
(WIA) grant funds. We conducted our audit because an independent public accounting firm
reported material weaknesses in Atlanta’s cash management, financial reporting and
participant eligibility for Department of Labor’s (DOL) programs in 2002. Our audit covered
$19.8 1 million of WtW and WIA grant funds. Atlanta spent $5 million for one WtW
competitive grant and $5.1 million for two WtW formula grants between 1998 and 2004.
During 2001 through 2003, Atlanta spent $9.7 million for WIA Youth and Adult grants. The
Atlanta Workforce Development Agency (AWDA) administered the grants while Atlanta was
the grantee.

Our audit was designed to answer the following questions:

    1. Did Atlanta adequately manage its WtW and WIA grant funds?

    2. Did Atlanta comply with eligibility requirements when enrolling individuals into the WtW
       and WIA Youth programs?

Results

We question a total of $11.3 million dollars because Atlanta did not have adequate
management controls to ensure: 1) WtW and WIA grant funds were spent in compliance with
Federal laws and regulations, and 2) individuals enrolled in these programs met eligibility
requirements. Atlanta lacked policies, procedures and oversight; which are key components
of an effective financial management system. In addition, the Employment and Training
Administration (ETA) raised concerns during its oversight visits. However, Atlanta did not
document implementing any of ETA’s corrective actions. ETA did not adequately follow-up
on its monitoring concerns.

The Code of Federal Regulations (CFR) titled “Uniform Administrative Requirements for
Grants and Cooperative Agreements to State and Local Governments; Standards for
Financial Management Systems” 29 CFR, Sec. 97.20 (29 CFR, Sec 97.20), states that
grantees and subtgrantees must have an adequate financial management system that
includes internal and management controls necessary to ensure grant fund expenditures are
allowable and authorized. Atlanta could not support that WtW and WIA funds were spent on
allowable activities or on eligible participants. Therefore, Atlanta did not meet the standards
for internal controls and allowable costs. Both WtW and WIA regulations required grantees
to submit financial and participant summary information on a cumulative quarterly basis to
their state or directly to ETA.

1
 Dollar figures in the executive summary have been rounded to the nearest hundred-thousand dollar. The
exact amounts are contained in the body of the report.

                                                   U.S. Department of Labor – Office of Inspector General
                                               3                            Report No.: 04-09-001-03-001
                                        The City of Atlanta, Georgia Did Not Adequately Manage DOL Grants



1. Atlanta did not have effective financial management systems for managing its WtW
   and WIA grant funds.

      For WtW grants, Atlanta did not provide evidence that it complied with Federal
      procurement requirements to ensure full and open competition of vendor contract awards.
      In addition, Atlanta made payments to contractors that were not supported by contracts,
      invoices or detail records for services provided to individuals. As a result, we question
      $10.1 million of WtW grant expenditures.

      For WIA grants, Atlanta paid contractors for program services without supporting
      documentation, posted expenses to the “Board of Directors” WIA Adult general ledger
      account without proper support, and commingled WIA funds 2 and non-DOL funds without
      the ability to trace or support disbursements. As a result, we question $1.2 million of WIA
      grant expenditures.

      In addition, Atlanta did not have effective controls to permit the tracing of WIA and WtW
      drawdowns and expenditures to specific grants. Nor could Atlanta reconcile grant
      expenditures with drawdowns. Further, neither ETA nor Atlanta was able to provide all of
      Atlanta’s Quarterly Financial Status Reports (QFSRs) for WtW or WIA.

2. Atlanta could not demonstrate that it always complied with eligibility requirements
   when enrolling individuals into WtW and WIA Youth programs.

      Atlanta could not demonstrate that it always complied with eligibility requirements when
      enrolling individuals into WtW and WIA Youth programs. Atlanta could not locate all
      participant files and, in other cases, files lacked sufficient documentation to validate
      eligibility. The QFSRs for Atlanta’s WtW and WIA Youth programs as of December 2002
      were not provided. We also determined individuals were ineligible to receive WIA Youth
      services. 3 Without the records to determine participant eligibility, Atlanta was unable to
      determine if reimbursements to contractors for services provided to individuals were
      allowable.

Auditee Response

In response to our draft report, the Executive Director of AWDA strongly disagreed with the
report’s two primary findings. Regarding the first finding, AWDA specifically challenged
OIG’s determination that Atlanta did not comply with Federal procurement requirements
ensuring full and open competition of vendor contract awards. AWDA provided a notice in a
general circulation newspaper inviting bids for one contract and evidence that eligible bids for
8 of the 36 WtW contracts were rated by AWDA personnel. Additionally, AWDA disagreed
with OIG’s conclusion that Atlanta could not validate the correctness of disbursements to
vendors. To support this claim, AWDA provided OIG with a spreadsheet listing 14 major
WtW and WIA vendors and 151 randomly selected disbursements.
2
    This finding includes questioned costs pertaining to both WIA and WtW grant funds.
3
    Questioned costs related to contracted services are included in Finding 1.

                                                       U.S. Department of Labor – Office of Inspector General
                                                   4                            Report No.: 04-09-001-03-001
                                 The City of Atlanta, Georgia Did Not Adequately Manage DOL Grants



AWDA also disagreed with the second finding stating it disagreed that eligibility requirements
for participants were not adequately validated or supported by sufficient documentation.
AWDA provided OIG with missing files and additional support for participant eligibility for
some but not all WtW and Youth participants in OIG’s sample.

Regarding documentation, AWDA noted it had possession of and had provided OIG with
representative documents to support the validity of its response.

OIG Conclusion

We have considered AWDA’s response in its entirety and found no additional information that
would materially affect our findings and recommendations. The recommendations will be
resolved as part of ETA’s audit resolution process.

The additional information AWDA provided to support its assertion that Atlanta complied with
federal procurement regulations was not sufficient to make a complete evaluation on the full
and open competition of its procurement process when it awarded WtW contracts. To make
a reasonable determination, copies of the requests for proposals, contractors’ responses to
the same and copies of the awarded contracts would be required. We repeatedly requested
this documentation throughout our audit, but Atlanta did not provide the information.

We could not evaluate AWDA’s random test of disbursements to 14 of its major WtW and
WIA vendors due to insufficient supporting documentation. Regarding documentation that
AWDA claimed it had in its possession, an Atlanta official told the auditors it would take at
least a year to sort through the files to locate information to dispute our findings.

We reviewed the files and additional information AWDA provided to support participant
eligibility for certain individuals in the audit sample. As appropriate, based on the information
AWDA provided, we adjusted the number of missing files and any related questioned costs.

AWDA’s response to the draft report is included in its entirety as Appendix D.

Recommendations

We recommend that the Deputy Assistant Secretary for Employment and Training:

   1. Recover questioned costs related to Welfare-to-Work grants totaling $10.1 million;

   2. Recover questioned costs related to Workforce Investment Act grants totaling $1.2
      million; and

   3. Ensure that Employment and Training Administration (ETA) conducts timely follow ups
      to determine whether grantees have implemented effective corrective actions in
      response to problems identified in monitoring reports.



                                               U.S. Department of Labor – Office of Inspector General
                                           5                            Report No.: 04-09-001-03-001
                               The City of Atlanta, Georgia Did Not Adequately Manage DOL Grants

We also recommend that the Deputy Assistant Secretary for Employment and Training
ensure that Atlanta develops and implements effective policies and procedures to:

   4. Maintain support, including Quarterly Financial Status Reports, for Workforce
      Investment Act grant expenditures in compliance with Federal regulations;

   5. Reconcile Workforce Investment Act grant expenditures with draw downs; and

   6. Comply with program eligibility requirements when enrolling individuals in WIA funded
      programs and maintain support documentation, including Quarterly Financial Status
      Reports.




                                            U.S. Department of Labor – Office of Inspector General
                                        6                            Report No.: 04-09-001-03-001
                                  The City of Atlanta, Georgia Did Not Adequately Manage DOL Grants



U.S. Department of Labor                          Office of Inspector General
                                                  Washington, DC 20210



                           Assistant Inspector General’s Report
November 17, 2008

Brent R. Orrell
 Deputy Assistant Secretary for
  Employment and Training
U.S. Department of Labor
200 Constitution Avenue, N.W.
Washington, DC 20210

We conducted a performance audit of Atlanta’s management of WtW and WIA grant funds.
We conducted our audit because an independent public accounting firm reported material
weaknesses in Atlanta’s cash management, financial reporting and participant eligibility for
DOL programs in 2002. Our audit covered WtW and WIA grant funds of $19.8 million.
Atlanta spent $5 million for one WtW competitive grant and $5.1 million for two WtW formula
grants between 1998 and 2004. During 2001 through 2003, Atlanta spent $9.7 million for
WIA Youth and Adult grants. AWDA administered the grants while Atlanta was the grantee.

Our audit was designed to answer the following questions:

   1. Did Atlanta adequately manage its WtW and WIA grant funds?

   2. Did Atlanta comply with eligibility requirements when enrolling individuals into its WtW
      and WIA Youth programs?

Atlanta did not have adequate management controls. They lacked adequate policies,
procedures and effective oversight necessary to properly manage its WtW and WIA grant
funds, or to comply with reporting and participant eligibility requirements. In addition, while
ETA raised concerns during their Atlanta oversight visits, they did not adequately follow up to
ensure Atlanta took effective corrective actions. Consequently, we question a total of $11.3
million because Atlanta did not comply with Federal procurement requirements and could not
support that WtW and WIA funds were spent on allowable activities or on eligible participants.
Of this amount, $10.1 million relates to WtW competitive and formula grant funds and $1.2
million relates to WIA grant funds.

We conducted this performance audit in accordance with Generally Accepted Government
Auditing Standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. Our audit
objectives, scope, methodology, and criteria are detailed in Appendix B.


                                               U.S. Department of Labor – Office of Inspector General
                                           7                            Report No.: 04-09-001-03-001
                                        The City of Atlanta, Georgia Did Not Adequately Manage DOL Grants

Results and Findings

Objective 1 - Did Atlanta Adequately Manage Its WtW and WIA Grant Funds?

Atlanta did not have effective financial management systems for managing its WtW and WIA
grant funds. Atlanta lacked adequate policies, procedures and oversight, which are key
components of an effective financial management system. In addition, ETA raised concerns
during its oversight visits. However, Atlanta did not document implementing any of their
corrective actions. ETA did not adequately follow-up on its monitoring concerns.

For WtW grants, Atlanta spent grant funds for program and administrative services that were
unallowable or unsupported because: (a) Federal procurement requirements were not
followed to ensure full and open competition of vendor contract awards, and (b) the
disbursements were not adequately supported. As a result, we question $10,114,972 of
WtW grant expenditures.

For WIA grants, Atlanta lacked documentation to support program expenditures, support
expenses to the “Board of Directors” WIA Adult general ledger account, and commingled
WIA grant funds 4 and non-DOL funds without the ability to trace or support disbursements.
As a result, we question $1,228,281 of WIA grant expenditures. Exhibit A charts the amount
of questioned costs for the WtW and WIA grants according to the type of finding.

In addition, Atlanta did not have controls in place to ensure funds drawn from a particular
WtW or WIA grant were used to cover related expenditures. Further, neither ETA nor Atlanta
was able to provide all of Atlanta’s Quarterly Financial Status Reports (QFSRs) for WtW or
WIA.

According to 29 CFR, Sec. 97.20, grantees and subtgrantees must have an adequate
financial management system that includes internal and management controls necessary to
ensure grant fund expenditures are allowable and authorized. Atlanta could not support that
WtW and WIA funds were spent on allowable activities or on eligible participants. Therefore,
Atlanta did not meet the standards for internal controls and allowable costs.

A.      Atlanta did not always conduct full and open competition when awarding WtW
        contracts.

Atlanta did not conduct full and open competition as required by Federal regulations when it
awarded $5,916,731 in contracts for WtW competitive and formula grants. We determined
$5,916,731 of WtW grant funds were spent for contracted program services. Of the
$5,916,731 expended $3,097,373 of WtW competitive grant funds and $2,819,358 of WtW
formula grant funds for contracted program services.

For 36 WtW contractors, Atlanta did not provide any evidence to support that the related
contracts were competitively bid. The WtW grant agreements required services to be

4
    This finding includes questioned costs pertaining to both WIA and WtW grant funds.

                                                       U.S. Department of Labor – Office of Inspector General
                                                   8                            Report No.: 04-09-001-03-001
                                    The City of Atlanta, Georgia Did Not Adequately Manage DOL Grants

procured through a competitive process. In addition, within the grant agreement, Atlanta
specifically provided assurance that it would fully comply with the 29 CFR, Sec. 97.36(c)
(Competition), which states: “All procurement transactions will be conducted in a manner
providing full and open competition.”

Atlanta could not provide evidence that it awarded the WtW program contracts in compliance
with its grant agreements and Federal procurement regulations. Atlanta was unable to
effectively explain the lack of documentation to support the full and open competition of the
36 WtW contractors. AWDA’s Financial Manager told us the personnel responsible for
awarding these contracts are no longer employed by Atlanta. The absence of personnel
does not mitigate the requirement or accountability to maintain adequate financial
management systems that include records to support compliance with Federal and grant
requirements.

Consequently, we question a total of $5,916,731 for contracts awarded without evidence of
full and open competition to WtW competitive and WtW formula grant contractors.

B.       Atlanta reimbursed WtW contractors for costs that were unsupported or
         unallowable.

While we question $5,916,731 related to a lack of full and open competition of awarded
contracts, we also question $5,164,955 of these same costs as unsupported or unallowable
costs, as follows:

     •    In 20 of 36 contracts for reported program expenditures Atlanta could not provide any
          evidence (contracts or invoices) to support $2,514,789;

     •    In 16 contracts, Atlanta expended $1,992,701 for contract payments without invoice
          support; and

     •    In 16 contracts, 432 invoices provided to support reimbursements to contractors,
          contractors were improperly reimbursed $657,465 for unallowable or unsupported
          costs, as detailed below: 5

          o   $485,311 for payments to contractors for services that contractors provided to
              individuals who were not on Atlanta’s list of eligible participants;

          o   $219,849 for 101 disbursement forms without invoices, or invoices without
              supporting documents;

          o   $21,225 for 6 invoices with duplicated payments;

          o   $18,650 for 3 invoices without evidence of payment approval;

5
 The maximum amount of questioned costs that may be recovered is limited to $657,465. The sum of the
amounts listed for each unallowable cost will exceed the $657,465 because some invoices contained more than
one unallowable cost and would be listed under each type of error.

                                                   U.S. Department of Labor – Office of Inspector General
                                               9                            Report No.: 04-09-001-03-001
                                   The City of Atlanta, Georgia Did Not Adequately Manage DOL Grants



         o   $12,927 for 3 invoices for services outside of contract terms; and

         o   $529 for 5 invoices with incorrect payment amounts.

Concerns raised by ETA and Atlanta officials

In December 2001, ETA raised concerns in its monitoring report about Atlanta’s lack of
support documentation for costs claimed by WtW service providers. ETA officials stated in
their monitoring report that they “encountered major difficulty in obtaining requested records.”
Atlanta officials responded to ETA’s inquiries for documentation by stating that “requested
items were boxed in the basement.” ETA noted it could not determine what services had
been received by participants in order to validate payments for two of Atlanta’s WtW service
contractors. In addition, after a review of files at the contractor site, ETA did not find any
documentation to support participants had actually received such services or whether a
contract was for the competitive, formula or both grants.

After AWDA’s administration changed in February 2003, the Executive Director terminated
WtW contracts prior to the end of the grant periods. According to the Executive Director, lack
of contractor monitoring by the previous administration led to this decision. AWDA reviewed
the contracts and concluded that “it appeared that contractors were going to overspend
based on the numbers of clients they had enrolled.”

Overall, Atlanta did not comply with:

     •   29 CFR, Sec. 97.20 (b)(6) requiring accounting records be supported with source
         documentation, such as invoices, cancelled checks and payroll records.

     •   Office of Management and Budget (OMB) Circular A-87(Cost Principles for State,
         Local and Indian Tribal Governments), Attachment A, Part C – Basic Guidelines,
         which states that, in order for Federal costs to be allowable it must be necessary and
         reasonable, and adequately documented.

Consequently, we question $5,164,955 of unsupported or unallowable WtW program
expenses for the reasons described above and illustrated in Exhibit A.

C.       Atlanta spent WtW grant funds for other program expenses and administrative
         expenses without adequate support.

Atlanta did not have support for other WtW program and WtW administrative costs in the
amount of $2,813,856 and $1,359,385, respectively. Other program costs cover program
activities not provided by contractors, such as salaries, operational costs and participant
supportive services. WtW administrative costs cover costs such as for salaries, fringe
benefits, office space, and non-personnel service cost. See Exhibit A for details of these
questioned costs.



                                                U.S. Department of Labor – Office of Inspector General
                                           10                            Report No.: 04-09-001-03-001
                                       The City of Atlanta, Georgia Did Not Adequately Manage DOL Grants

Atlanta provided the following records and documents to support administrative and other
program costs:

     •    Excel spreadsheets of expenditures broken down by type of WtW grant and expense;

     •    Copy of a journal entry listing the transfer of expenses from cost pools to respective
          grants; and

     •    Time and attendance records, timesheets, and leave request forms.

However, no invoices or source documents were provided for any direct costs. As well, no
documentation was provided to support the spreadsheets or journal entry. The time and
attendance records merely indicated the total number of hours worked by the staff, and did
not include the rate of pay and associated costs of fringe benefits. This documentation is
inadequate because it does not provide the level of detail necessary to validate the direct
costs and the allocation of salaries and other costs to the appropriate grant.

The standards for financial management systems codified in 29 CFR, Sec. 97.20 (b)(6)
require accounting records to be supported with source documentation. Additionally, OMB
Circular A-87 Attachment C states that local governments “claiming central service costs
must develop a [cost allocation] plan . . . and maintain the plan and related supporting
documentation for audit.”

Consequently, we question $2,813,856 for other WtW program expenses and $1,359,385 for
WtW administrative expenses which lacked adequate support.

D.        Atlanta reimbursed WIA contractors for unsupported or unallowable costs.

Of $1,904,573 reimbursed to 11 WIA contractors we question $828,281 of these WIA
contract costs for the following reasons:

         • $372,649 were not supported by any financial records; and

         • $455,632 paid to 9 of the 11 contractors was unsupported or unallowable. When
              totaled by type of error, 6 our testing revealed that Atlanta paid its contractors:

         • $237,768 for 45 invoices that reimbursed contractors for services provided to
              individuals who were not on Atlanta’s list of WIA participants served;
          •     $198,276 for 27 invoices which lacked sufficient supporting documentation;

          •    $26,500 for 3 invoices for services performed outside the terms of the contract;
               and

6
 The maximum amount of questioned costs that may be recovered is limited to $455,632. The sum of the
amounts listed for each unallowable cost will exceed the $455,632 since some invoices contained more than
one unallowable cost and would be listed under each type of error.


                                                     U.S. Department of Labor – Office of Inspector General
                                                11                            Report No.: 04-09-001-03-001
                                The City of Atlanta, Georgia Did Not Adequately Manage DOL Grants



      •   $1,500 for 2 invoices duplicating a payment for the identical service provided on
          the same day to the same individual.

Atlanta did not comply with the standards for financial management systems codified in
29 CFR, Sec. 97.20 (b)(6) that requires accounting records to be supported with source
documentation, and OMB Circular A-87, which requires costs to meet the standards of
“necessary and reasonable” and be properly authorized. Consequently, we question
$828,281 of WIA program costs.

E.    Atlanta did not provide support for WIA Adult funds charged to Atlanta’s
      General Ledger Account titled “Board of Directors.”

Atlanta did not provide documentation to support $300,000 charged to the WIA Adult
program in an account titled “Board of Directors.” Without support documentation for the
expenditures from the “Board of Directors” account, we could not determine whether the
$300,000 was allowable or properly classified as administrative or program costs. The
distinction between administrative and program costs is important since WIA regulations limit
administrative expenses to 10 percent of the total grant award. As a result, we question
$300,000 for unsupported costs posted to Atlanta’s “Board of Directors” general ledger
account charged to the WIA Adult program.

F.    Atlanta commingled DOL funds with non-DOL funds without support or a
      mechanism to trace disbursements.

Atlanta opened a checking account in February 1999 with an initial deposit of $25,000 from
the WtW competitive grant funds. In July 2000, Atlanta deposited $100,000 into the account
from the WIA Adult Job Training program funds. These funds were commingled with non-
DOL funds. According to Atlanta officials and available bank documents, non-DOL funds
deposited into the checking account included parking fees collected during Atlanta Braves
baseball games, as well as funds from AWDA board members and other unidentified
sources.

Atlanta disbursed the commingled funds without any mechanism to trace or support the
transactions. Therefore, Atlanta did not comply with the tracing of grant expenditures
required by the WtW grant agreement, WIA regulations, and 29 CFR, Sec. 97.20, (a)(2)
which states that:

      … the entity permit the tracing of funds to a level of expenditures adequate to
      establish that such funds have not been used in violation of the restrictions and
      prohibitions of applicable statutes.
On April 15, 2003, Atlanta officials closed the checking account and transferred the account
balance of $31,959 into the City’s Miscellaneous Account. However, due to the lack of
supporting records, Atlanta could not determine if any of the balance belonged to DOL
programs. Atlanta could not verify that the $125,000 deposited in the account had been


                                             U.S. Department of Labor – Office of Inspector General
                                        12                            Report No.: 04-09-001-03-001
                                The City of Atlanta, Georgia Did Not Adequately Manage DOL Grants

properly spent on DOL programs. Therefore, we question $125,000 because Atlanta could
not account for DOL funds after they were commingled with non-DOL funds.

G.    Grant expenditures could not be traced to specific grants or reconciled to
      drawdowns.

Atlanta did not have effective controls over the maintenance of records and the reconciliation
of drawdowns to expenditures. Atlanta was unable to provide QFSRs for CY 2002 in order to
readily trace expenditures to specific grants. When requesting draw downs, Atlanta batch-
processed receipts without identifying the associated grant. In addition, drawdown requests
were based on the difference between the total expenditures in the general ledger and the
previous drawdowns. These practices precluded Atlanta from reconciling drawdowns to
expenditures for each grant.ch grant.

.According to 29 CFR, Sec. 97.20:

      (b) The financial management systems of other grantees and subgrantees
      must meet the following standards . . .

      (2) Accounting records. Grantees and subgrantees must maintain records which
      adequately identify the source and application of funds provided for financially-
      assisted activities. These records must contain information pertaining to grant or
      subgrant awards and authorizations, obligations, unobligated balances, assets,
      liabilities, outlays or expenditures, and income.

As a result of these ineffective controls, Atlanta could not ensure that funds drawn from a
particular grant were used to cover expenditures for that grant instead of being used for
another program. However, based on ETA’s Notification of Closeout, Atlanta’s expenditures
did not exceed the WtW grant award amounts.

Lack of Required Financial Reports

Federal regulations at 20 CFR Sec. 645.240 require WtW grant recipients to report
cumulative financial information to their state or directly to ETA by submitting QFSRs.
According to WIA Sec 185 “Reports; Recordkeeping; Investigation” grant recipients shall
“submit quarterly financial reports to the Governor.” The required information included total
award amount and costs categorized as administrative or programmatic costs. This
information assisted ETA’s monitoring of grantees financial activities, especially to determine
if the grantee was complying with administrative cost limitations. Both Atlanta and ETA were
unable to provide evidence that all quarterly reports during our audit period had been
submitted to the appropriate entities. Therefore, Atlanta did not comply with these financial
reporting requirements and monitoring Atlanta’s financial activities was compromised.




                                              U.S. Department of Labor – Office of Inspector General
                                         13                            Report No.: 04-09-001-03-001
                                The City of Atlanta, Georgia Did Not Adequately Manage DOL Grants

Auditee Response

The AWDA Executive Director strongly disagreed with OIG’s finding that Atlanta did not have
effective financial management systems for managing its WtW and WIA grant funds. In its
response, AWDA specifically challenged OIG’s determination that Atlanta did not comply with
Federal procurement requirements ensuring full and open competition of vendor contract
awards. AWDA asserted that its own document review established that solicitations for WtW
proposals were in fact conducted in accordance with the parameters of a full and open
competitive procurement process. AWDA stated that supporting documentation included, but
was not limited to, a notice inviting bids for one contract in a newspaper of general
circulation; and evidence that eligible bids for 8 of the 36 WtW contracts were rated by
AWDA personnel.

Regarding OIG’s conclusion that Atlanta could not validate the correctness of disbursements
to vendors, AWDA stated that it performed a random test of disbursements to 14 major
vendors of the WtW and WIA program. As a result of this effort, the AWDA expressed
confidence that Atlanta’s financial system was able to produce reliable financial data for
planning, control, measurement, and evaluation of AWDA’s projects. To support this claim,
AWDA provided OIG with a spreadsheet listing 14 major WtW and WIA vendors and 151
randomly selected disbursement transactions.

Regarding documentation, AWDA noted it had possession of and had provided OIG with
representative documents to support the validity of its response.

OIG Conclusion

We have considered AWDA’s response in its entirety and found no additional information that
would materially affect our findings and recommendations. The recommendations will be
resolved as part of ETA’s audit resolution process.

The additional information AWDA provided to support its assertion that Atlanta complied with
Federal procurement regulations was not sufficient to make a complete evaluation on the full
and open competition of its procurement process when it awarded WtW contracts. We view
the newspaper article referred to in AWDA’s response for one WtW contract award and the
rating sheets prepared by AWDA’s personnel for 8 of 36 contactors as relevant, but not
sufficient to determine whether contracts were competitively bid. Also, in order to make a
reasonable determination, copies of the requests for proposals, contractors’ responses to the
same and copies of the awarded contracts would be required. We repeatedly requested this
documentation throughout our audit, but Atlanta did not provide the information.

We could not evaluate AWDA’s random test of disbursements to 14 of its major vendors due
to insufficient support. AWDA provided a spreadsheet of transactions it tested with no
supporting documentation. Regarding documentation which AWDA claimed it had in its
possession, an Atlanta official told the auditors it would take at least a year to sort through
the file to locate information to dispute our findings.


                                              U.S. Department of Labor – Office of Inspector General
                                         14                            Report No.: 04-09-001-03-001
                                        The City of Atlanta, Georgia Did Not Adequately Manage DOL Grants

Recommendations

We recommend that the Deputy Assistant Secretary for Employment and Training:

    1. recover questioned costs related to Welfare-to-Work grants totaling $10.1 million;

    2. recover questioned costs related to Workforce Investment Act grants totaling $1.2
       million; and

    3. ensure that the Employment Training Administration conducts timely followups to
       determine whether grantees have implemented effective corrective actions in
       response to problems identified in monitoring reports.

We also recommend that the Deputy Secretary for Employment and Training ensure that
Atlanta develops and implements effective policies and procedures to:

    4. maintain support, including Quarterly Financial Status Reports, for Workforce
       Investment Act grants expenditures in compliance with Federal regulations; and

    5. reconcile grant expenditures with draw downs.


Objective 2 - Did Atlanta comply with eligibility requirements when enrolling
              individuals into WtW and WIA Youth programs?

Atlanta could not demonstrate that it always complied with eligibility requirements when
enrolling individuals into WtW 7 and WIA Youth programs. Due to missing participant files or
the lack of sufficient documentation, eligibility determinations could not always be validated.
As well, officials at ETA and Atlanta were unable to locate Atlanta’s QFSRs which reported
cumulative participant activities for the period ending December 2002. 8

Atlanta claimed that 615 individuals were WtW “General Eligibility” participants. However, we
project that a maximum of 590 individuals’ eligibility were valid. According to Atlanta’s
records, 212 individuals were WtW “Other Eligibles” participants. We project that no more
than 191 of these individuals were valid participants. As well, Atlanta claimed that 675
individuals were eligible WIA Youth participants. We project that, at most, participant files for
only 574 of these individuals validated their eligibility. See Exhibit B for details of the
statistical projections.




7
  WtW classified participants as either “General Eligibility” or “Other Eligibles,” each with separate eligibility
requirements.
8
  Due to limited data availability, our WtW eligibility tests reviewed participant files from the beginning of the
WtW programs through December 31, 2002. However, the WIA tests only covered the Program Year 2002,
July 1, 2002 through June 30, 2003.

                                                        U.S. Department of Labor – Office of Inspector General
                                                   15                            Report No.: 04-09-001-03-001
                                  The City of Atlanta, Georgia Did Not Adequately Manage DOL Grants

Eligibility requirements for WtW “General Eligibility” and “Other Eligibles” participants are
cited in 20 CFR, Sec. 645.212 and 20 CFR, Sec. 645.213, respectively. WIA Youth program
eligibility requirements are cited in 20 CFR Sec. 664.200.

A.     WtW “General Eligibility” participants’ eligibility could not be validated.

Atlanta’s list contained 615 WtW “General Eligibility” participants. Of the 86 individuals
randomly selected for eligibility testing, participant files for 13 individuals (15 percent) lacked
adequate support to validate eligibility. Based on a statistical projection, we estimate that
between 25 and 68 of the 615 participants’ eligibility could not be validated.

B.     WtW “Other Eligibles” participants’ eligibility could not be validated.

Atlanta’s list contained 212 WtW “Other Eligibles” participants. Of the 68 individuals
randomly selected for eligibility testing, participant files for 20 individuals (29 percent) lacked
adequate support to determine their eligibility. Based on a statistical projection, we estimate
that between 21 and 40 of the 212 participants’ eligibility could not be validated.

Atlanta officials stated that Temporary Assistance for Needy Families participants were
automatically enrolled in the WtW programs and later determined if they should be
characterized as “General Eligibility” participants or “Other Eligibles” participants. Without
adequate supporting documentation, we were unable to determine if Atlanta actually followed
the appropriate eligibility criteria for WtW participants.

C.     WIA Youth participants’ were ineligible or their eligibility could not be validated.

According to 20 CFR, Sec. 664.200 titled “Who is Eligible for Youth Services,” individuals are
eligible to receive WIA Youth services if they are between 14 and 21 years old, are classified
as low-income and fall within one or more high-risk categories, such as pregnancy or school
dropout.

Atlanta’s list contained 675 WIA Youth participants for PY2002. Of the 87 individuals
randomly selected for eligibility testing, participant files for 50 individuals (58 percent) were
either ineligible or lacked adequate support to determine their eligibility. Based on a
statistical projection, we estimate that between 101 and 155 of the 675 participants’ eligibility
could not be validated.

The prevailing errors detected during each of the three eligibility tests resulted either because
the participant files could not be located or there was no support or insufficient support
documentation to determine eligibility. According to WIA Section 185 “recipients shall
maintain standardized records for all individual participants and provide to the Secretary a
sufficient number of such records to provide for an adequate analysis of the records.”
Furthermore, without the records to determine participant eligibility, Atlanta is unable to
determine if reimbursement requests from contractors for services provided to individuals are
allowable. In addition, lack of QFSRs restricts grantees and ETA or state officials from



                                                U.S. Department of Labor – Office of Inspector General
                                           16                            Report No.: 04-09-001-03-001
                                         The City of Atlanta, Georgia Did Not Adequately Manage DOL Grants

monitoring Atlanta’s participant activity against anticipated levels. Exhibit B details the
statistical projection of the three eligibility tests.

D.        Atlanta reimbursed contractors for serving participants that did not meet WIA
          Out-of-School Youth program eligibility requirements or eligibility could not be
          validated.

Atlanta reimbursed contractors $25,737 9 for participants that did not meet WIA Out-of-School
Youth program requirements, or for whom Atlanta could not provide documentation of their
eligibility. Based on invoices submitted between January 1, 2001, and December 31, 2002,
Atlanta served a total of 34 WIA Out-of-School Youth participants. We reviewed all available
invoices from the two contractors totaling $75,877 for benchmark services. Atlanta
reimbursed contractors:

      •   $4,204 for 3 individuals who did not register for Section 3 Military Selective Services
          making them ineligible to receive WIA Out-of-School Youth services,

      •   $9,630 for 4 individuals whose official participant files could not be located even
          though their names appeared on Atlanta’s list of participants, and

      •   $11,903 for 7 individuals whose files could not be located and whose names were not
          included on Atlanta’s list of participants.

Atlanta did not provide sufficient documentation to confirm eligibility status of individuals and
did not ensure that male participants at least 18 years of age registered with the selective
service. This requirement is stated in WIA Section 189(h) which requires each enrolled male
participant to present themselves for registration according to Section 3 of the Military
Selective Service Act.


Auditee Response

The AWDA Executive Director strongly disagreed with OIG’s finding that Atlanta could not
demonstrate that it always complied with eligibility requirements when enrolling individuals
into WtW and WIA Youth programs. Specifically, AWDA disagreed that eligibility
requirements for participants were not adequately validated or supported by sufficient
documentation. AWDA provided OIG with missing files and additional support for participant
eligibility for some, but not all, WtW and Youth participants in OIG’s sample. AWDA also
stated that it had existing policies and procedures to ensure compliance with all federal
regulations to maintain support documentation, including QFSRs, and validation of program
eligibility requirements when enrolling individuals in WIA funded programs.




9
    $25,737 is included in the questioned costs of Objective 1, Finding D.

                                                        U.S. Department of Labor – Office of Inspector General
                                                   17                            Report No.: 04-09-001-03-001
                               The City of Atlanta, Georgia Did Not Adequately Manage DOL Grants

OIG Conclusion

We considered AWDA’s response to the draft report and reviewed the files and additional
information AWDA provided to support participant eligibility for the individuals in OIG’s
sample. As appropriate, based on the information AWDA provided, we adjusted the number
of missing files and any related questioned costs. The recommendation will be resolved as
part of ETA’s audit resolution process.

Recommendation

We recommend that the Deputy Assistant Secretary for Employment and Training
Administration ensure that Atlanta develops and implements effective policies and
procedures to:

   6. Comply with program eligibility requirements when enrolling individuals in WIA funded
      programs and maintain support documentation, including QFSRs.




Elliot P. Lewis




                                            U.S. Department of Labor – Office of Inspector General
                                       18                            Report No.: 04-09-001-03-001
           The City of Atlanta, Georgia Did Not Adequately Manage DOL Grants




Exhibits




                        U.S. Department of Labor – Office of Inspector General
                   19                            Report No.: 04-09-001-03-001
   The City of Atlanta, Georgia Did Not Adequately Manage DOL Grants




PAGE INTENTIONALLY LEFT BLANK




                U.S. Department of Labor – Office of Inspector General
           20                            Report No.: 04-09-001-03-001
                                       The City of Atlanta, Georgia Did Not Adequately Manage DOL Grants



                                                                                                 EXHIBIT A
                        $11.3 Million in Questioned Costs for Atlanta
                    By Type of Department Of Labor Grant and By Finding
                                May 1998 – September 2004
                                                                Combined
                                   WtW           WtW           Competitive
              Finding                                                            WtW Total       WIA Total
                                 Competitive    Formula        and Formula
                                                                  WtW
            Non-Competitively
1(a)                             $3,097,373    $2,819,358                         $5,916,731
            Bid Contracts
            Unsupported
            Contract             $1,205,504    $1,309,285                         $2,514,789
            Expenditures
            Unsupported
            Invoice               1,041,307         512,811        $438,583        1,992,701
       **
1(b)        Expenditures
            Unallowable
            Contractor              323,290         208,634         125,541          657,465
            Reimbursements
                    Total 1(b)   $2,570,101    $2,030,730          $564,124       $5,164,955
            Lack of Support
            for Other Program     1,127,627      1,686,229                         2,813,856
            Costs
1(c)
            Lack of Support
            for Administrative      750,000         609,385                        1,359,385
            Costs
            Unallowable
1(d)        Contractor                                                                             $828,281
            Reimbursements
            Lack of Support
1(e)        for Board of                                                                            300,000
            Directors Costs
            Lack of Support
1(f)        for Commingled           25,000                                            25,000       100,000
            Funds
            Questioned Costs     $5,000,000    $5,114,972                       $10,114,972 $1,228,281

                                                    Total Questioned Costs             $11,343,253


   ** The $5,164,955 of questioned costs detailed in Finding 1(b) is included in the $5,916,731 questioned
   costs identified in Finding 1(a) for WtW non-competitive bid contracts.


                                                    U.S. Department of Labor – Office of Inspector General
                                               21                            Report No.: 04-09-001-03-001
   The City of Atlanta, Georgia Did Not Adequately Manage DOL Grants




PAGE INTENTIONALLY LEFT BLANK




                U.S. Department of Labor – Office of Inspector General
           22                            Report No.: 04-09-001-03-001
                                The City of Atlanta, Georgia Did Not Adequately Manage DOL Grants



                                                                             EXHIBIT B

                             CITY OF ATLANTA
                      INVALID PARTICIPANT ELIGIBILITY
                          PROJECTION OF ERRORS

                                                            (95 Percent Confidence Level)

                                  WtW “General          WtW ”Other
   Type of Participant                                                      WIA Youth
                                   Eligibility”          Eligibles”

Universe Size                                  615                 212                675


Sample Size                                     86                    68               87

Number of Errors in
                                                13                    20               50
Sample
                      Average




Percent                                        8%                  15%               19%
(Rounded) of
Universe
                      Between




Projected with                                 4%                  10%               15%
Errors
                                              11%                  19%               23%
                      Average




                                                49                    32              128
Number of Errors
Projected to
Universe
                      Between




(Rounded)                                       25                    21              101

                                                68                    40              155
Total Universe
                                               615                 212                675
(Least Number of Projected Errors)
                                               (25)                (21)             (101)
Projected Maximum Number of
                                               590                 191                574
Eligible Participants




                                             U.S. Department of Labor – Office of Inspector General
                                        23                            Report No.: 04-09-001-03-001
   The City of Atlanta, Georgia Did Not Adequately Manage DOL Grants




PAGE INTENTIONALLY LEFT BLANK




                U.S. Department of Labor – Office of Inspector General
           24                            Report No.: 04-09-001-03-001
             The City of Atlanta, Georgia Did Not Adequately Manage DOL Grants




Appendices




                          U.S. Department of Labor – Office of Inspector General
                     25                            Report No.: 04-09-001-03-001
   The City of Atlanta, Georgia Did Not Adequately Manage DOL Grants




PAGE INTENTIONALLY LEFT BLANK




                U.S. Department of Labor – Office of Inspector General
           26                            Report No.: 04-09-001-03-001
                                The City of Atlanta, Georgia Did Not Adequately Manage DOL Grants

                                                                                   APPENDIX A
BACKGROUND

Purpose of the Welfare-to-Work (WtW) Grant

Provisions of the Balanced Budget Act of 1997 authorized the DOL to award $3 billion in
WtW grants to states and other organizations. The WtW program, administered by ETA,
assisted states and local communities by providing transitional employment assistance to
move hard-to-employ recipients of Temporary Assistance to Needy Families into lasting
unsubsidized jobs and economic self-sufficiency.

ETA provided WtW funds directly to local and community-based organizations through WtW
competitive grants. Interested organizations competed by submitting proposals to serve
WtW participants. ETA also provided participating states with WtW formula funds which they
passed-through to local entities. Subgrantees designated by states to receive WtW formula
grants, such as Atlanta, assumed all responsibilities required to manage the Federal funds.

WtW participants received job readiness training and job placement services. To assist in
job retention, WtW funds also provided participants with support services, such as
transportation or child care.

Purpose of the Workforce Investment Act Grant (WIA)

Enacted in 1998, WIA reformed Federal job training programs creating a comprehensive
workforce investment system. Intended to be customer focused, key components include
streamlining services through a One-Stop delivery system, providing universal access to core
services, ensuring a strong role for Local Workforce Investment Boards (LWIB), and
improving youth programs. LWIBs focus on strategic planning, policy development, and
oversight of the local workforce investment system.

WIA participants and associated program services are generally classified as Adult,
Dislocated Workers, or Youth. Persons seeking help are initially referred to a One-Stop
center that provides services at three levels: core, intensive and training. Adult and
Dislocated Workers must complete a core services; such as initial assessment, job search
and placement assistance; before receiving intensive services. Intensive services include
counseling and job-readiness activities. Adults who are unsuccessful in finding or retaining
employment that allows self-sufficiency after receiving core and intensive services may be
referred to training.

WIA tailors services provided for eligible youths by focusing on completing secondary or
alternative secondary school; gaining work experience through internships or job shadowing;
obtaining summer employment; participating in leadership development opportunities,
including community service experience; and receiving adult mentoring.




                                             U.S. Department of Labor – Office of Inspector General
                                        27                            Report No.: 04-09-001-03-001
                                    The City of Atlanta, Georgia Did Not Adequately Manage DOL Grants

City of Atlanta’s (Atlanta) WtW and WIA Grant Programs

As the official grant recipient of the WtW and WIA funds, Atlanta assumed fiduciary
responsibility. The Atlanta Workforce Development Agency (AWDA), a department of
Atlanta, served as the administrative entity and handled day-to-day operations.

Atlanta was awarded the following DOL funds during our audit period according to Table 1
and Table 2 below:

                                                                                          Table 1

                            WtW Competitive and Formula Grant Funds
                                     Awarded to Atlanta

         Grant           Grant               Grant                          Grant
         Type           Amount              Number                          Period

      Competitive      $5,000,000      Y-6788-8-00-81-60        July 1, 1998 to June 30, 2003

      Formula           2,629,952       80-98-00-0-0-14          May 6, 1998 to May 5, 2001
                                                                     September 29, 1999
      Formula           2,485,020       80-99-00-1-1-14
                                                                    to September 28, 2004

            Total $10,114,972


                                                                                       Table 2

                                 WIA Funds Awarded to Atlanta
                                   CY 2001 through CY 2003

           Program              2001              2002          2003              Total

         Adult                 $2,059,547     $1,771,968       1,649,360             $5,480,875

         Youth                  2,137,815         1,998,340    1,773,605              5,909,760

                    Total      $4,197,362     $3,770,308      $3,422,965         $11,390,635




                                                   U.S. Department of Labor – Office of Inspector General
                                             28                             Report No.: 04-09-001-03-001
                                The City of Atlanta, Georgia Did Not Adequately Manage DOL Grants

                                                                                   APPENDIX B
OBJECTIVES, SCOPE, METHODOLOGY, AND CRITERIA

Objectives

Our audit was designed to answer the following questions:

   1. Did Atlanta adequately manage its WtW and WIA grant funds?

   2. Did Atlanta comply with eligibility requirements when enrolling individuals into the WtW
      and WIA Youth programs?

Scope

The Office of Inspector General conducted a performance audit of $19,856,247 in WtW and
WIA grant funds spent by Atlanta. The audit was conducted because an independent public
accounting firm reported material weaknesses regarding Atlanta’s cash management,
financial reporting and participant eligibility of the DOL programs in CY 2002. Atlanta spent
$5,000,000 for one WtW competitive grant and $5,114,972 for two WtW formula grants
between 1998 and 2004. During CY 2001 through 2003, Atlanta spent $9,741,275 of the
$11,390,635 grant awards for WIA Youth and Adult grants. In addition, we performed
specific testing of WIA program costs spent beyond the audit period as necessary.

Fieldwork was conducted at the AWDA office, located at 818 Pollard Boulevard, Southwest,
Atlanta, Georgia.

In planning and performing our audit, we considered Atlanta’s internal controls over their
administration of WtW and WIA funds and eligibility determination by obtaining an
understanding of the programs’ internal controls. The objective of our audit was not to
provide assurance on the internal controls. Consequently, we did not express an opinion on
the internal controls as a whole, but rather how they related to our objective. Therefore, we
evaluated the internal controls as they pertained to awarding contracts, verifying accuracy of
disbursements, classification of general ledger accounts, reconciling drawdowns with
expenditures, and determining eligibility.

Methodology

To gain an understanding of the WtW and WIA grants, we reviewed the grant agreements,
and applicable laws and regulations for financial and eligibility compliance requirements. We
interviewed officials with the ETA, Georgia Department of Labor (GDOL), and Atlanta to
gather additional information. To ensure that contracted goods and services were procured
in accordance with Federal regulations and to determine if services provided were allowable,
we reviewed WtW contracts (in effect between 1998 and 2004) and WIA Youth contracts (in
effect between 2001 and 2003). These contracts were for providing program services or
support services for eligible participants.


                                             U.S. Department of Labor – Office of Inspector General
                                        29                            Report No.: 04-09-001-03-001
                                The City of Atlanta, Georgia Did Not Adequately Manage DOL Grants

We reviewed management’s internal controls for providing reasonable assurance that the
operations were in compliance with applicable laws and regulations and that the financial and
eligibility data reported was reliable.

We relied on computer-processed data contained in Atlanta’s general ledgers only for
reporting of total expenditures for the WtW grants. These amounts were verified against
grant close-out packages without discrepancies. Based on these tests and limited reliance,
we conclude the data are sufficiently reliable to be used in meeting our objective.

We reviewed Single Audit Reports for CY 2002 and the supporting work papers for CYs 2002
and 2003. Relying on the independent auditors’ work papers and Single Audit Reports, we
followed up with testing and interviews with the external auditors, as necessary, to gain a
better understanding of the work performed. We also reviewed monitoring reports by
oversight agencies for issues that could have an effect on our audit. Specifically, we
reviewed ETA’s 2001 and 2002 monitoring reports of Atlanta’s WtW competitive grant and
the GDOL’s monitoring reports of the WtW formula and WIA grants.

      Financial Management

Audit tests of Atlanta’s financial management practices, as it related to WtW and WIA funds,
focused on testing procurement, expenditures, discretionary bank accounts, and
reconciliation of drawdowns with expenditures. Through interviews with Atlanta’s staff we
identified Atlanta’s management controls over administrative and accounting functions. We
also reviewed Atlanta’s policies and procedures manuals and the WtW and WIA grant
agreements in order to determine if Atlanta’s policies complied with Federal regulations and
OMB Circulars related to WtW and WIA grants. Our methods used to examine each area
and specific information about each test is presented below:

        Procurement – We reviewed Atlanta’s list of all 36 WtW contractors that made up the
total contractor reimbursements reported in Atlanta’s WtW competitive and formula grant
general ledger program accounts. Atlanta was only able to provide 16 WtW contractor files
for us to determine if they were competitively bid. We reviewed Atlanta’s WtW competitive
grant general ledger program account and determined that $3,097,373 had been charged to
contract services. Review of Atlanta’s WtW formula grant general ledger program account
revealed that $2,819,358 had been spent for contracted services. Through interviews with
Atlanta staff and review of contractor files, the combined amount of $5,916,731 was tested to
determine if the contracts were competitively bid.

       Expenditures – Neither Atlanta nor ETA could locate all Quarterly Financial Status
Reports (QFSRs) for our review. In order to determine the amount of administrative, contract
program and other program (non-contracted) expenditures, we reviewed the general ledger
and used the chart of accounts to determine how WtW competitive and formula grant funds
were spent. Atlanta did not provide sufficient detailed documentation to test administrative or
other program costs. We did, however, test expenditures related to the 16 WtW contracts
awarded for $3,401,942 and 11 WIA contracts awarded for a total of $1,904,573. All
contracts were in place between January 1, 2001, and December 31, 2003. Our tests were


                                              U.S. Department of Labor – Office of Inspector General
                                         30                            Report No.: 04-09-001-03-001
                                 The City of Atlanta, Georgia Did Not Adequately Manage DOL Grants

to determine compliance with allowable cost principle requirements codified in 29 CFR, Sec.
97.20, Uniform Administrative Requirements for Grants and Cooperative Agreements to
State and Local Governments; 20 CFR, Sec. 645.200 for WtW cost requirements; 20 CFR,
Sec. 666.230 for WIA grant requirements; and OMB Circular A-87, Cost Principles for State,
Local and Indian Tribal Governments.

Atlanta provided 432 WtW invoices totaling $1,409,241 and 130 WIA invoices totaling
$1,531,924 paid between January 1, 2001, and December 31, 2003. Contractors submitted
these invoices to Atlanta for providing program services to participants. We reviewed all
available WtW and WIA contracts, the available invoices and their support to determine
compliance with Federal cost principles and grant requirements.

WtW Contract Testing: The testing involved comparing individuals claimed by contractors for
attaining performance benchmarks or for reimbursement of support services against names
listed as WtW participants compiled by Atlanta. Individual names not appearing on Atlanta’s
lists were considered ineligible to receive WtW services. We confirmed these results by
inputting their Social Security Numbers (SSNs) into the Georgia Workforce System (GWS)
database.

In addition, we tested each invoice to ensure that they were approved for payment, complied
with contract terms, were not duplicate payments, and had support for reimbursement
requests.

WIA Contract Testing: We performed the same attribute tests as those for the WtW invoices;
however, names appearing on the WIA invoices for benchmark payments or reimbursement
were compared against Atlanta’s list of WIA participants and no SSNs were entered into
GWS.

In both the WtW and WIA invoice testing, for every invoice that had at least one attribute
error, the maximum amount of questioned cost for that invoice was determined. For every
attribute that resulted in an "N" answer, or attribute error, the associated cost was identified
for that specific attribute.

       Commingled Funds - DOL and non-DOL funds were commingled in bank accounts
and used for a variety of purposes. We interviewed the internal auditors and reviewed their
work papers, which included bank statements, limited cancelled checks, and documents
regarding the opening and closing of the bank accounts. The work papers did not include
support of all transactions. We performed these steps to determine if expenditures were in
compliance with DOL regulations.

      Administrative Costs – Administrative costs for both WtW and WIA grants were
reviewed for compliance with cost limitation requirements and to determine if costs were
charged appropriately to administrative or program costs.




                                               U.S. Department of Labor – Office of Inspector General
                                          31                            Report No.: 04-09-001-03-001
                                 The City of Atlanta, Georgia Did Not Adequately Manage DOL Grants

       Reconciliation of Drawdowns with Expenses – We reviewed Atlanta’s general
ledger, drawdown history and other financial records in an attempt to reconcile expenditures
and drawdowns for both WtW and WIA grant funds.


       Participant Eligibility

We selected a statistical sample of WtW and WIA Youth participants as of December 2002,
to determine if their eligibility determination was correct. Our sample was selected in order to
project the errors against their respective universes at a 95 percent confidence level. We
determined that 86 samples out of a universe of 615 individuals classified as WtW “General
Eligibility” participants; 68 samples out of a universe of 212 individuals classified as WtW
“Other Eligibles” participants; and 87 samples out of a universe of 675 individuals classified
as WIA Youth participants served were necessary to test for eligibility. Because Atlanta
could not locate QFSRs for the period ending December 2002, we relied on Atlanta’s WtW
and WIA participant lists as a basis for each program’s universe.

In addition, we tested eligibility of all 34 WIA Out-of-School Youth participants. Our eligibility
tests included determining whether individuals complied with Section 3 of the Military
Selective Service Act by registering.

Documents within each participant file sampled were reviewed to determine if the individuals’
eligibility determination complied with WtW and WIA regulations.


Criteria

Federal regulations that define procurement standards for government entities are codified in
29 CFR, Sec. 97, known as the Uniform Administrative Requirements for Grants and
Cooperative Agreements to State and Local Governments. 29 CFR, Sec. 97.42 – Retention
and Access Requirements for Records defines the retention period for financial records,
supporting documents, statistical records, and other records of grantees or subgrantees
which are “reasonably considered as pertinent to program regulations or the grant
agreement.”

29 CFR, Sec. 97.20 defines the Standards for Financial Management Systems which require
grantees and subgrantees have adequate financial management systems to permit the
preparation of accurate financial reports due at the end of each quarter; and permit the
tracing of funds to all related program expenditures. This includes internal and management
controls that ensure grant expenditures are allowable and authorized. Specifically,

       Allowable Cost: Applicable OMB cost principles, agency program regulations,
       and the terms of grant and subgrant agreements will be followed in determining
       the reasonableness, allowability, and allocability of costs.




                                               U.S. Department of Labor – Office of Inspector General
                                          32                            Report No.: 04-09-001-03-001
                                The City of Atlanta, Georgia Did Not Adequately Manage DOL Grants

      Internal Control: Effective control and accountability must be maintained for all
      grants and subgrants cash, real, and personal property, and other assets.
      Grantees and subgrantees must adequately safeguard all such property and
      must assure that it is used solely for authorized purposes.

OMB Circular A-87 (Cost Principles for State, Local and Indian Tribal Governments) requires
that expenses are allowable and reasonable and that support documentation be maintained
for cost allocation plans.

Youth activities under Title 1 of the Workforce Investment Act of 1998 are codified in 20 CFR,
Sec. 664 published August 11, 2000. Title IV, Part A of the Social Security Act defines the
grant provisions of Welfare-to-Work which are codified in 20 CFR, Sec. 645, published
January 11, 2001.

Auditing Standards

We conducted this performance audit in accordance with Generally Accepted Government
Auditing Standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective.




                                             U.S. Department of Labor – Office of Inspector General
                                        33                            Report No.: 04-09-001-03-001
   The City of Atlanta, Georgia Did Not Adequately Manage DOL Grants




PAGE INTENTIONALLY LEFT BLANK




                U.S. Department of Labor – Office of Inspector General
           34                            Report No.: 04-09-001-03-001
                           The City of Atlanta, Georgia Did Not Adequately Manage DOL Grants

                                                                                APPENDIX C

ACRONYMS AND ABBREVIATIONS



AWDA     Atlanta Workforce Development Agency

CFR      Code of Federal Regulations

CY       Calendar Year

DOL      Department of Labor

ETA      Employment and Training Administration

GDOL     Georgia Department of Labor

GWS      Georgia Workforce System

LWIB     Local Workforce Investment Board

OMB      Office of Management and Budget

QFSR     Quarterly Financial Status Report

SSN      Social Security Number(s)

WIA      Workforce Investment Act

WtW      Welfare-to-Work




                                          U.S. Department of Labor – Office of Inspector General
                                     35                            Report No.: 04-09-001-03-001
   The City of Atlanta, Georgia Did Not Adequately Manage DOL Grants




PAGE INTENTIONALLY LEFT BLANK




                U.S. Department of Labor – Office of Inspector General
           36                            Report No.: 04-09-001-03-001
                   The City of Atlanta, Georgia Did Not Adequately Manage DOL Grants

                                                                        Appendix D
Auditee Response




                                U.S. Department of Labor – Office of Inspector General
                           37                            Report No.: 04-09-001-03-001
The City of Atlanta, Georgia Did Not Adequately Manage DOL Grants




             U.S. Department of Labor – Office of Inspector General
        38                            Report No.: 04-09-001-03-001
The City of Atlanta, Georgia Did Not Adequately Manage DOL Grants




             U.S. Department of Labor – Office of Inspector General
        39                            Report No.: 04-09-001-03-001
The City of Atlanta, Georgia Did Not Adequately Manage DOL Grants




             U.S. Department of Labor – Office of Inspector General
        40                            Report No.: 04-09-001-03-001
The City of Atlanta, Georgia Did Not Adequately Manage DOL Grants




             U.S. Department of Labor – Office of Inspector General
        41                            Report No.: 04-09-001-03-001
                         The City of Atlanta, Georgia Did Not Adequately Manage DOL Grants




IN ORDER TO REPORT FRAUD, WASTE OR ABUSE, PLEASE CONTACT:

Online:       http://www.oig.dol.gov/hotlineform.htm
Email:        hotline@oig.dol.gov

Telephone:    1-800-347-3756
              202-693-6999

Fax:          202-693-7020

Address:      Office of Inspector General
              U.S. Department of Labor
              200 Constitution Avenue, N.W.
              Room S-5506
              Washington, D.C. 20210


                                      U.S. Department of Labor – Office of Inspector General
                                 42                            Report No.: 04-09-001-03-001
The City of Atlanta, Georgia Did Not Adequately Manage DOL Grants




             U.S. Department of Labor – Office of Inspector General
        43                            Report No.: 04-09-001-03-001
